Nos. 20-37 and 20-38

In the Supreme Court of the United States
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
CHARLES GRESHAM, ET AL.
STATE OF ARKANSAS, PETITIONER
v.
CHARLES GRESHAM, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

REPLY IN SUPPORT OF
MOTION TO VACATE THE JUDGMENTS OF THE
COURT OF APPEALS AND REMAND, TO REMOVE THE
CASES FROM THE MARCH 2021 ARGUMENT CALENDAR,
AND TO HOLD FURTHER BRIEFING IN ABEYANCE
PENDING DISPOSITION OF THE MOTION
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-37
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
CHARLES GRESHAM, ET AL.
No. 20-38
STATE OF ARKANSAS, PETITIONER
v.
CHARLES GRESHAM, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

REPLY IN SUPPORT OF
MOTION TO VACATE THE JUDGMENTS OF THE
COURT OF APPEALS AND REMAND, TO REMOVE THE
CASES FROM THE MARCH 2021 ARGUMENT CALENDAR,
AND TO HOLD FURTHER BRIEFING IN ABEYANCE
PENDING DISPOSITION OF THE MOTION

The federal petitioners, as well as the private respondents who brought these suits and prevailed below, agree
that, in light of the marked change of circumstances since
the Court granted certiorari in these cases, the appropriate course is to vacate the court of appeals’ decisions below and remand so that the Secretary of Health and Human Services (HHS) may determine the appropriate path
forward. New Hampshire, one of the two States whose
demonstration projects are at issue, takes no position.
(1)

2
Only Arkansas resists that disposition. Although it
does not oppose (Opp. 6) our submission that the cases
should be removed from the March 2021 argument calendar and that briefing should be held in abeyance pending disposition of the government’s motion to vacate and
remand, Arkansas urges the Court (Opp. 1) to proceed
with review of the cases this Term despite intervening
events that have fundamentally altered the landscape.
Following the change in Administration, HHS has made
a preliminary determination that, in light of the
COVID-19 pandemic and its public-health and economic consequences, the central feature of the two
States’ demonstration projects at issue—work-related
requirements—will not promote the statutory objectives
of Medicaid. HHS accordingly has commenced a process
of determining whether to withdraw approval of those
requirements. Yet Arkansas asks the Court (Opp. 1-6)
to adjudicate the cases as if those actions (and indeed,
the pandemic, Opp. 3) did not exist. Arkansas offers no
sound basis for this Court to proceed with further review
under these circumstances. Arkansas does not identify
any compelling reason for this Court to adjudicate the
validity of its demonstration project, which has been materially overtaken by events and expires by its own terms
on December 31, 2021. Nor does Arkansas explain why
vacatur and remand is an inappropriate disposition. The
federal petitioners’ motion should be granted.
1. Arkansas does not and cannot demonstrate that
these cases continue to warrant plenary review by this
Court given the greatly changed circumstances set forth
in our motion (at 3-7). The Court granted the federal
government’s and Arkansas’s petitions for writs of certiorari to review the court of appeals’ judgments invalidat-

3
ing the Secretary’s approvals of amendments to Arkansas’s and New Hampshire’s Medicaid demonstration
projects under 42 U.S.C. 1315(a). See, e.g., 20-38 Pet. i
(“The question presented” by Arkansas’s petition is
“[w]hether the Secretary’s approval of the Arkansas
Works Amendment was lawful.”). The central features
of those projects and the focus of this litigation in the
lower courts were work-related requirements that the
States had sought to test as potential means of “promoting the objectives of ” Medicaid. 42 U.S.C. 1315(a); see
Mot. 2-3; Gov’t Br. I, 14-21.
As the federal petitioners and the private respondents have each since explained, however, the landscape
today has “fundamentally changed” since the issuance
of the decisions below evaluating those work-related requirements. Private Resp. Br. 26 (capitalization and
emphasis omitted); see id. at 23-27; Mot. 3-6. The
COVID-19 pandemic has made implementation of workrelated requirements practically infeasible. Mot. 3. Federal legislation providing an increase in federal Medicaid
funding to States bars States that accept the funds (as all
have done) from enforcing such requirements throughout the pandemic. Mot. 3-4. Most significantly, HHS has
exercised its statutory authority to maintain ongoing
oversight of previously approved demonstration projects
and has made a preliminary determination that allowing
Arkansas’s and New Hampshire’s work-related requirements to take effect “would not promote the objectives
of the Medicaid program.” Mot. 5 (citation omitted).
HHS has accordingly commenced a process of determining whether to withdraw its prior approvals of those
work-related requirements. Ibid.

4
Against that backdrop, the validity of the Secretary’s
earlier approvals of those requirements no longer warrants review. The records that the agency developed
when approving those time-limited experiments reflect
a markedly different, pre-pandemic world. And the earlier determinations by HHS that the courts below reviewed necessarily did not and could not address the
question the Secretary now confronts: whether testing
such work-related requirements in the midst of
COVID-19 and its aftermath, and the pandemic’s manifold public-health and economic effects, will further
the Medicaid program’s aims. These greatly changed
circumstances—and the Secretary’s response by invoking his authority to exercise ongoing oversight of
approved projects—render these cases unsuitable vehicles to consider the agency’s actions, which were taken
several years ago in a starkly different world.
Nor would further review serve any practical purpose. Determining whether those earlier determinations “w[ere] lawful” when made in 2018 (20-38 Pet. i)
would not assist the agency in carrying out its statutory responsibilities and exercising its expert judgment today. And Arkansas has not identified any realworld benefit it hopes to obtain by urging continued
review of the prior agency actions. Even if Arkansas
prevailed in this Court, the State could not implement
its work-related requirements until after the pandemic
ends unless it stopped accepting increased federal funding. Mot. 3-4. And as the State acknowledges, wholly
independent of HHS’s future actions, the Secretary’s
prior approval of Arkansas’s demonstration project at
issue in this litigation will “expire[ ] on December 31” by
its own terms. Opp. 5 n.2. In short, Arkansas asks this
Court to press forward notwithstanding the greatly

5
changed circumstances and to review work-related requirements that will expire before they realistically
could take effect.
Arkansas’s responses are misdirected. It asserts
(Opp. 2-4) that the cases are not yet moot. But the relevant issue is not whether the Court has the power to
decide the cases in their current posture, but whether it
should review them given intervening events following
the grant of certiorari. The State’s preemptive assertions (Opp. 3-4) of putative procedural and substantive
error if the Secretary withdraws his approval of Arkansas’s work-related requirements are palpably premature. And even if Arkansas were correct in predicting
(Opp. 1) that the underlying legal questions would warrant this Court’s review in future litigation, these cases
are not suitable vehicles to consider those questions
now on records that have been overtaken by events.
2. The only remaining questions concern further
proceedings in and disposition of these cases by this
Court. Most immediately, the federal petitioners and
the private respondents agree, and no party disputes,
that the cases should be removed from the March 2021
argument calendar and that further briefing should be
held in abeyance pending disposition of the motion.
Mot. 7; see Opp. 6 (stating that “Arkansas does not oppose the Government’s request to hold briefing in abeyance and remove the cases from the March argument
calendar pending a ruling on the Government’s motion,
provided that if the Court denies vacatur, it hears argument this Term”).
As to the disposition of the cases, the federal petitioners and private respondents—who secured the
court of appeals’ judgments—agree that the appropriate course is to vacate those judgments and to remand,

6
clearing the way for HHS to determine the path forward. Mot. 7. New Hampshire takes no position. Ibid.
Arkansas opposes that disposition (Opp. 1-2, 4-6),
but it provides no sound reason to reject that course.
Arkansas posits (Opp. 2) that vacating the court of appeals’ decisions and remanding to the agency is unnecessary because the agency’s “path is clear already.” Arkansas’s own confidence that such a remand would be
redundant is no reason for this Court to leave any
doubt. Arkansas elsewhere argues (Opp. 5) that vacatur and remand is insufficient unless the district court’s
judgments setting aside the Secretary’s earlier approvals are also vacated. But what additional action by the
courts below may be needed to effectuate a remand of
the underlying matters to the agency is a matter those
courts are in a position to address.
At a minimum, if this Court does not wish to determine what further steps (including remand to the
agency) are necessary and appropriate following vacatur of the court of appeals’ judgments, it could alternatively leave those matters to the court of appeals to address on remand in the first instance.

7
* * * * *
For the foregoing reasons and those stated in the
federal petitioners’ motion, the Court should vacate the
judgments of the court of appeals and remand with instructions that the underlying matters be remanded to
the Secretary; remove the cases from the March 2021
argument calendar; and hold further briefing in abeyance pending the Court’s disposition of this motion.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

FEBRUARY 2021

